Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 USING SOFTWARE TO DETECT
 UPCODING OF HOSPITAL BILLS




                   JUNE GIBBS BROWN
                    Inspector General

                       August 1998
                      OEI-01-97-00010
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston office prepared this report under the direction of Mark R. Yessian, Ph.D., Regional
Inspector General. Principal OEI staff included:

BOSTON REGION                                                HEADQUARTERS

Russell Hereford, Project Leader                             Mark Krushat
Kenneth Price                                                Tricia Davis
Nicola Pinson                                                Linda Moscoe
                                                             Brian Ritchie



   To obtain a copy of this report, please contact the Boston Regional Office by telephone at
                         (617) 565-1050 or by fax at (617) 565-3751.


          Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                   EXECUTIVE SUMMARY

PURPOSE

       The purpose of this study is to test the ability of commercial software products to identify
       Diagnosis Related Group upcoding in Medicare hospital bills.

BACKGROUND

       Since 1983, Medicare has paid acute care hospitals for the care of its beneficiaries under a
       prospective payment system using Diagnosis Related Groups (DRGs). In fiscal year 1996,
       expenditures for inpatient hospital care under this system totaled $77.6 billion.

Improper Payments

       Improper hospital payments are a continuing concern in the Medicare program. In its
       Chief Financial Officers audit of Medicare, the Office of Inspector General (OIG)
       estimates that in fiscal year 1997, $4.1 billion of DRG payments were inappropriate due to
       lack of medical necessity, insufficient or no documentation, or incorrect coding.

       One particular concern is upcoding of hospital bills, the practice of billing for a hospital
       stay more expensive than the one actually incurred. In previous studies, we found
       upcoding in DRGs ranging from 7 to 13 percent.

Commercial Upcoding Detection Software

       Dozens of vendors now offer upcoding detection software that locates potentially
       upcoded DRGs by analyzing electronic files of hospital bills. These products are likely to
       become increasingly sophisticated as the state of the art of computing races ahead.

       In this inquiry we evaluated the ability of two promising products to identify DRG
       upcoding. First, we used these products to identify hospital bills with suspected upcoded
       DRGs. Then we used professional record reviewers to perform a blinded medical review
       on a sample of cases to assess how well the products predicted DRG upcoding at the
       hospital, DRG, and case levels.

FINDINGS

Hospital Level

       Hospitals identified by the software had an average upcoding rate of 11.5 percent, more
       than double the 5.3 percent average upcoding rate of the control hospitals.




 OEI-01-97-00010                          )))))))))))              Software to Detect Upcoding of Hospital
                                               i                                                     Bills
       However, the software also identified as high upcoders a substantial number of hospitals in
       which our medical record review identified few or no upcoded cases.

DRG Level

       The software performed best at identifying upcoded cases in three DRGs that show the
       highest rates of actual upcoding: DRG 87, pulmonary edema and respiratory failure; DRG
       79, respiratory infections and inflammations; and DRG 144, other circulatory system
       diagnoses. These three DRGs comprise 3.5 percent of all Medicare discharges, or about
       350,000 discharges per year.

       However, among the most commonly occurring DRGs, we found that the software was no
       more effective in identifying upcoded cases than among other DRGs.

Case Level

       The software successfully identified between 50 and 60 percent of cases that were actually
       upcoded. Over 40 percent of upcoded cases went undetected.

       However, only 10 to 20 percent of cases that the software identified as upcoded were, in
       fact, upcoded.

CONCLUSIONS

       Our analysis of the software products provides some basis for optimism about the role that
       such products can play in detecting DRG upcoding. Yet we temper that optimism with
       strong caution as to the current state of the art of this software and the need to couple its
       use with other measures in the detection and prevention portfolio.

       The software we examined showed modest success in identifying hospitals with a high rate
       of upcoding and upcoded cases within a narrowly defined group of DRGs that exhibited
       the most frequent upcoding. Thus, software could be used to identify hospitals that may
       need close scrutiny either before or after Medicare pays them. However, because these
       products were distinctly less successful for most other DRGs, we see only a limited role
       for these products at the current time.

       It is likely, however, that the software market will continue to develop over time, and that
       products such as these will advance in sophistication and become more useful as part of a
       fraud detection strategy. No doubt HCFA will want to stay abreast of opportunities that
       this technology may present.

VENDOR COMMENTS

       We provided copies of our draft report and our contractor’s report to the three vendors
       whose software products we tested. We wish to express our appreciation to these

 OEI-01-97-00010                         )))))))))))              Software to Detect Upcoding of Hospital
                                              ii                                                    Bills
      companies for their willingness to let us use their products in this inspection, and for their
      comments and analysis of our draft report.

      These companies raised two general points in their responses. First, the companies
      indicated that their products could be modified in ways that address the Medicare
      population more directly, and that they are continuously updating and enhancing their
      products. We note that our purpose was not to develop new software, but to test
      commercially available off-the-shelf software. We did not modify the vendors’ software,
      nor did we ask them to modify the software or to develop a specific software product for
      this purpose.

      Second, they questioned the methods we used to test the software. We stand by our
      methodology. We tested the software in a way that we considered would be useful to an
      agency such as HCFA. We took the software’s underlying individual claims based
      approach and aggregated the results of individual claims analysis to the provider level. We
      then verified the software products’ performance by reviewing cases among a sample of
      the providers that the software identified as having a high rate of upcoding. In our
      judgement, this was a practical extension of the software. We used these products in a
      manner that might identify and focus on providers that bear additional scrutiny in a fraud
      prevention and detection effort.

      We also address the methodological issues that one of the vendors raised in its response to
      the report.

      We include the full text of each vendor’s comments in Appendix D.




OEI-01-97-00010                          )))))))))))              Software to Detect Upcoding of Hospital
                                              iii                                                   Bills
                              TABLE OF CONTENTS

                                                                                                                                  PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Hospital Level . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


          DRG Level . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Case Level . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


CONCLUSIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


VENDOR COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES


          A: Software Vendor Search . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-1


          B: Testing Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-1


          C: Statistical Tables . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-1


          D: Text of Software Vendors’ Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-1


          E: Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . E-1





 OEI-01-97-00010                                                                            Software to Detect Upcoding of Hospital
                                                                                                                              Bills
                            INTRODUCTION


PURPOSE

       The purpose of this study is to test the ability of commercial software products to identify
       Diagnosis Related Group upcoding in Medicare hospital bills.

BACKGROUND

       Since 1983, Medicare has paid hospitals for the care of its beneficiaries under a
       prospective payment system (PPS) using Diagnosis Related Groups (DRGs). In fiscal
       year 1996, expenditures for hospital care under this system totaled $77.6 billion.1 Under
       PPS, payment to hospitals for each Medicare case is based on a hospital-specific payment
       rate, multiplied by the weight of the DRG to which the case is assigned. Each DRG
       weight represents the average resources required to care for cases in that particular DRG
       relative to the average resources used to treat cases in all DRGs.

       Cases are classified into DRGs based on the principal diagnosis, up to eight additional
       diagnoses, and up to six procedures performed during the stay, as well as the age, sex, and
       discharge status of the patient. Upon discharge, the physician summarizes information on
       a discharge face sheet. A hospital coder then reviews the entire medical record and uses
       that information to assign the most appropriate codes from the International Classification
       of Diseases, 9th Revision, Clinical Modification (ICD-9-CM). The hospital uses this
       information to prepare a claim for payment, which it forwards to the Medicare fiscal
       intermediary. The intermediary applies a series of edits to the claim, then groups the ICD-
       9-CM codes in the claim into the appropriate DRG for payment to the hospital.

Improper Payments

       Improper hospital payments are a continuing concern for Medicare’s Part A trust fund. In
       its Chief Financial Officers audit of Medicare, the Office of Inspector General (OIG)
       estimates that in Fiscal year 1997, $4.1 billion of hospital payments were inappropriate
       due to lack of medical necessity, insufficient or no documentation, or incorrect coding.2
       One particular concern is upcoding of hospital bills, the practice of billing for a hospital
       stay more expensive than the one actually incurred. In previous OIG studies, we found
       upcoding in DRGs ranging from 7 to 13 percent.3,4

Commercial Upcoding Detection Software

       As the pressure on public and private insurers to eliminate improper payments has risen,
       the market for software to detect upcoding has experienced rapid growth. Dozens of
       vendors now offer such software. These products analyze the diagnostic and
       administrative data from each hospital bill in an electronic claims file to predict whether

 OEI-01-97-00010                         )))))))))))              Software to Detect Upcoding of Hospital
                                              1                                                     Bills
       the DRG contained in the bill is upcoded. Many vendors sell their products “off the
       shelf”— ready to be installed and utilized with minimal investment and setup time. These
       products are likely to become increasingly sophisticated as the state of the art of
       computing races ahead.

This Inquiry

       Within its fiscal year 1996 Chief Financial Officers audit of Medicare, OIG recommended
       that HCFA enhance prepayment and postpayment controls by updating computer systems
       to better detect improper claims. In this inquiry we evaluated the ability of two promising
       products to identify DRG upcoding through electronic analysis of hospital bills. We chose
       these two products from a field of 21 vendors who offer similar products. We intended
       this test to be illustrative of how software might complement HCFA’s existing program
       integrity initiatives by functioning as one part of a broad strategy for DRG payment
       safeguarding. We based our evaluation on a blinded medical record review of a national
       sample of 2,622 Medicare cases from 1996. The review was performed by an independent
       contractor using accredited medical records professionals.

METHODOLOGY

       We executed the test in two phases, using a contractor with expertise in statistical
       sampling and medical record review for highly specialized tasks.

       In phase one we used our contractor to search for vendors of upcoding detection
       software. The search initially identified 57 vendors whose product description indicated
       some type of claim auditing software or services. Further research of these 57 vendors
       reduced the list to 21 vendors who had software that appeared relevant to our study. Out
       of these 21 software vendors, 3 agreed to participate in our study.5

       Using software from these three vendors, we analyzed 100 percent of Medicare inpatient
       claims from January through June of 1996 to identify claims that appeared to be upcoded.6
       Next, we collapsed the output from each software product to generate three lists of
       hospitals with high predicted rates of upcoding. Through correlation analysis, we
       discovered a strong relationship between the lists of hospitals generated by two of the
       software products, while the list from the third product differed significantly. Due to
       limits on the number of medical records we could review for this study, we decided to
       focus our inquiry by testing only the output from the two software products whose lists
       were closely correlated.7 Therefore, as the first step of our sample, we selected 50
       hospitals that both products predicted had high rates of upcoding. We refer to this group
       of hospitals as our test sample.

       As a control, we also selected a sample of 20 hospitals that fell into similar size strata as
       our test sample but did not have high predicted rates of upcoding. This brought the total
       number of hospitals in our study to 70 — 50 hospitals with high predicted rates of
       upcoding and 20 hospitals without high predicted rates of upcoding. From each hospital,

 OEI-01-97-00010                          )))))))))))              Software to Detect Upcoding of Hospital
                                               2                                                     Bills
      we sampled 40 Medicare inpatient admissions billed under any of the 50 most prevalent
      DRGs in 1996. This brought the total number of cases in our study to 2,800. We were
      able to obtain and complete analysis on 2,622 (94 percent) of these cases. Tables C-1
      through C-4 in Appendix C present data on the characteristics of the hospitals and cases
      examined in this review.

      In phase two our contractor performed a blinded medical record review of each case. For
      this task, the contractor used Registered Records Administrators, Accredited Records
      Technicians, Certified Coding Specialists, and physicians. Based on the contents of the
      medical record, the contractor derived a new set of ICD-9-CM diagnostic and procedure
      codes and used them to generate a new DRG for each case. If there was discrepancy
      between the new DRG and the DRG for which the hospital had billed Medicare, the case
      was referred for a second blind review to determine the final DRG. If the contractor
      calculated a final DRG that was less expensive than the DRG the hospital billed Medicare
      for, we defined a case as upcoded.8 Thus, for each of the 2,622 cases in our review, we
      knew which had been properly coded and which had been upcoded.

      We then used this information to determine if the two software products successfully
      predicted whether each case in our sample had an upcoded DRG. We analyzed these data
      on three levels: by hospital, by DRG, and by case. To perform hospital-level and DRG-
      level analysis, we aggregated our data by hospital and DRG to compare actual and
      predicted rates of upcoding. Case-level analysis examined the success of the software in
      predicting DRG upcoding on a case-by-case basis. Our analyses used t-tests and logistical
      regression to determine statistical differences.

      A detailed description of the software vendor search and testing methodology appears in
      Appendices A and B.

      We conducted this study in accordance with the Quality Standards for Inspections issued
      by the President’s Council on Integrity and Efficiency.




OEI-01-97-00010                        )))))))))))             Software to Detect Upcoding of Hospital
                                            3                                                    Bills
                                     FINDINGS

Hospital Level

       Hospitals identified by the software had an average upcoding rate of 11.5 percent,
       more than double the 5.3 percent average upcoding rate of the control hospitals.

       The 50 hospitals in the test group — those hospitals that the software identified as having
       high rates of upcoding — did in fact exhibit higher upcoding rates than the hospitals in our
       control sample. The 12 hospitals in which our medical records reviewers found the
       highest upcoding rates were in the test sample. Seven of these test hospitals had upcoding
       rates of 25 percent or higher; more than half (26 out of 50) had an upcoding rate of 10
       percent or higher. (See Table I.)

       The 20 hospitals in the control sample tended to have low upcoding rates. In the sample
       of cases from control hospitals, our reviewers found upcoding rates below 5 percent in
       half the hospitals. They found no upcoded cases at all in 5 of the 20 control hospitals.

       We performed logistic regression analysis to control for the effects of additional variables
       related to the hospitals (e.g., teaching status, ownership) and individual cases (e.g., patient
       gender and age). Even taking these variables into account, we found that the likelihood of
       a case being upcoded in hospitals identified by the software was almost twice as high as it
       was for hospitals in the control sample. Table C-5 in Appendix C presents the full results
       of this analysis.

                     Table I: Upcoding Rates for Test and Control Hospitals
                                          Entire Sample    Test Hospitals   Control Hospitals
                                             (n=70)           (n=50)             (n=20)

             Average upcoding rate
             (t=3.57 p<.001)
                                              9.8%            11.5%               5.3%

             Number (percent) with
                      $
             upcoding $25%
                                             7 (10%)         7 (14%)               0 (0%)

             Number (percent) with
                      $
             upcoding $10% and <25%
                                           22 (31%)         19 (38%)               3 (15%)

             Number (percent) with
             upcoding <10%
                                           41 (59%)         24 (48%)             17 (85%)


       However, the software also identified as high upcoders a substantial number of
       hospitals in which our medical record review identified few or no upcoded cases.

       In 6 of the 50 hospitals in the test sample, our medical records reviewers found no
       upcoded cases, even though the software predicted that these hospitals would have high
 OEI-01-97-00010                          )))))))))))              Software to Detect Upcoding of Hospital
                                               4                                                     Bills
      rates of upcoding. In 15 of these 50 hospitals we found upcoding rates of 5 percent or
      less.

      At the same time, it is worth noting that our reviewers found upcoding rates of 10 percent
      or higher in 3 of the 20 control hospitals.

DRG Level

       Measuring the Effectiveness of Software in Identifying Upcoded Cases

       The effectiveness of a software product can be measured along two dimensions, referred
       to as sensitivity and specificity. Each dimension can be expressed as a percentage.

       Sensitivity measures the extent to which the software identifies all cases that have been
       upcoded. In our sample of 2,622 cases, our independent medical records reviewers
       determined that 254 cases (9.7 percent) had been upcoded. A software product that was
       perfectly sensitive would identify all 254 of these cases.

       Specificity assesses the software’s efficiency. Specificity measures the software’s
       ability to discriminate between those cases that were upcoded and those cases that were
       not upcoded, i.e., the extent to which the software identifies only those cases that really
       were upcoded. If the software were perfectly specific, every case that it identified would
       be upcoded.

       An ideal product would be perfectly sensitive and perfectly specific — in our review, for
       example, a perfect product would have selected all 254 upcoded cases and omitted the
       other 2,368 cases.

       In reality, there often is a trade-off between sensitivity and specificity: To achieve
       greater sensitivity, the software must cast a wide net; this means that it might identify
       some cases that were not really upcoded, referred to as “false positives.” Conversely, to
       achieve greater specificity, the software risks missing some cases that actually were
       upcoded; those cases that it misses are referred to as “false negatives.”




      We examined the performance of the software among two sets of DRGs which we
      consider potentially high risk to the Medicare program in terms of potential dollars lost:
      those DRGs in which we found a high level of upcoding and those DRGs which occur
      most frequently. We examined these DRGs to determine whether the software might be
      most efficiently utilized by identifying a subset of DRGs that represent potentially high
      cost to the Medicare program, either because they exhibited high rates of upcoding or
      because of the sheer volume of cases.

      The software performed best at identifying upcoded cases in DRGs that show the
      highest rates of actual upcoding.

OEI-01-97-00010                            )))))))))))                 Software to Detect Upcoding of Hospital
                                                5                                                        Bills
      The software was most accurate in identifying cases in the three DRGs with the highest
      actual rates of upcoding. These 3 DRGs comprise 3.5 percent of all Medicare discharges,
      or about 350,000 discharges per year:

              DRG 87 (Pulmonary edema and respiratory failure). Our medical records
              reviewers found an actual upcoding rate of 41 percent. The software products had
              sensitivity rates of 69 percent and 61 percent, and specificity rates of 60 percent
              and 47 percent.

              DRG 79 (Respiratory infections and inflammations, age > 17 with complications
              or comorbidities). Our medical records reviewers found an actual upcoding rate of
              35 percent. The software products had sensitivity rates of 95 percent and    55
              percent, and specificity rates of 36 percent each.

              DRG 144 (Other circulatory system diagnoses with complications or
              comorbidities). Our medical records reviewers found an actual upcoding rate of
              30 percent. The software products had sensitivity rates of 86 percent and
              71 percent, and specificity rates of 86 percent and 42 percent.

      For DRGs with lesser—but still high—rates of upcoding, however, the software was less
      accurate. For example, one software product flagged no cases in the DRGs with the
      fourth highest upcoding rate (DRG 239, with 24 percent actual upcoding) or the fifth
      highest upcoding rate (DRG 429, with 23 percent upcoding); the other product was only
      slightly more successful. For informational purposes, we present data on sensitivity and
      specificity of the software for the 10 DRGs with highest rates of upcoding in Appendix C,
      Table C-6.

      One implication arising from this analysis is that once DRGs that exhibit high levels of
      upcoding have been found — for example, through ongoing case review and analysis of
      discharges — the software products may have a role to play in helping to identify specific
      cases within those DRGs that merit further scrutiny.

      We also examined how well the software performed in detecting case-specific upcoding
      among the group of 10 DRGs with the highest upcoding rates, versus the other DRGs we
      reviewed in this inspection. (See Table C-7 in Appendix C.) We found no statistical
      difference between these two groups in the software’s sensitivity (i.e., its ability to identify
      upcoded cases). We did, however, find that the software was more specific among those
      frequently upcoded DRGs. In other words, those cases that the software did identify
      tended to be actually upcoded.

      However, among the most commonly occurring DRGs, we found that the software
      was no more effective in identifying upcoded cases than among other DRGs.

      The 10 most commonly occurring DRGs comprise 10 percent of all Medicare discharges,
      or about 1 million discharges per year. Within our sample, they comprised 13 percent of


OEI-01-97-00010                          )))))))))))               Software to Detect Upcoding of Hospital
                                              6                                                      Bills
       cases reviewed, yet they accounted for 53 percent of upcoded cases.9 Table C-8 in
       Appendix C provides data on these 10 most commonly occurring DRGs.

       We examined how well the software performed in detecting case-specific upcoding among
       this group of 10 DRGs, versus the other DRGs we reviewed in this inspection. (See Table
       C-9 in Appendix C.) We found no statistical difference in sensitivity or specificity for
       either product in its ability to detect upcoding among these 10 most commonly occurring
       DRGs, compared with the performance of the products in correctly identifying upcoded
       cases in other DRGs.

Case Level

       Our sensitivity analysis showed that the software products successfully identified
       between 50 and 60 percent of cases that were actually upcoded.

       Our medical records reviewers determined that our sample contained 254 cases that had
       been upcoded. Of these 254 upcoded cases, one product identified 133 (52 percent) of
       these cases, and the other product identified 147 cases (58 percent). This sensitivity rate
       has an important implication: over 40 percent of cases that actually were upcoded went
       undetected by these products.

       However, our specificity analysis showed that only 10 to 20 percent of cases that the
       software products identified as upcoded were, in fact, upcoded.

       One product identified 685 cases as upcoded, but only 133 (19 percent) of these cases
       were determined by our reviewers to be upcoded. For the other product, out of 1,284
       cases it identified as upcoded, 147 (11 percent) were determined by our reviewers to
       actually be upcoded. Such a low specificity rate reduces the efficiency of the software as a
       detection tool by requiring that multiple cases be reviewed in order to locate each upcoded
       case. In essence, for the product with 19 percent specificity, reviewers would need to
       examine 4 false leads to find 1 case that truly was upcoded. For the product with the 11
       percent specificity rate, that review level rises to 9 false leads for each truly upcoded case.




 OEI-01-97-00010                          )))))))))))              Software to Detect Upcoding of Hospital
                                               7                                                     Bills
                             CONCLUSIONS


      The software we examined showed modest success in identifying hospitals with a high rate
      of upcoding. Those hospitals that the software identified were twice as likely to have
      upcoded cases as a control group of hospitals. This finding leads us to believe that the
      software could be used in an ongoing way to identify hospitals that are likely to upcode
      their Medicare bills.

      There are various approaches as to how the software might be applied at the hospital
      level. For example, HCFA might wish to use this software as a tool in its post-payment
      recovery efforts. Based on the results we found, HCFA could use such software to
      retrospectively identify hospitals in which it would be likely to find a high level of upcoded
      cases and commensurate overpayment. Alternatively, the agency could use this software
      to identify hospitals that have previously demonstrated a tendency to upcode, and then
      perform focused review on cases from these hospitals prior to making payments.

      The software also showed some success within the narrowly defined group of DRGs that
      exhibited the most frequent upcoding. Because the software was relatively successful in
      identifying particular cases that were upcoded among these DRGs, its use here could be
      expected to yield significant returns. For post-payment recovery efforts, HCFA could opt
      to focus on cases in the upcoded DRGs; analogously, the software could be used
      prospectively to identify cases in particular DRGs for review prior to payment.

      At the same time, our review leads us to raise caution about these products, particularly at
      the individual case level. While they worked well for the most frequently upcoded DRGs,
      our review determined that these products were distinctly less successful for other DRGs.
      It is for this reason that we see only a limited role, as described above, for these products
      at the current time.

      The two software products that we reviewed were illustrative of what was available on the
      market in the Spring of 1997. We believe, however, that it is likely that the software
      market will continue to develop, and that products such as these will advance in
      sophistication and expand in their usefulness as part of a fraud detection strategy. No
      doubt HCFA will want to stay abreast of opportunities that this technology may present.




OEI-01-97-00010                         )))))))))))              Software to Detect Upcoding of Hospital
                                             8                                                     Bills
                      VENDOR COMMENTS


We provided copies of our draft report and our contractor’s (FMAS) report to the three vendors
whose software products we tested. We wish to express our appreciation to these companies for
their willingness to let us use their products in this inspection, and for their review of and
comments on our draft report. Their overall comments reflect support for analytical work of this
nature; however, the vendors express some concerns about our application of the software and
raise some questions about our methodology. We address their comments here, and we include
the complete text in Appendix D.

We wish to address two points that the vendors raised regarding the manner in which we applied
the software. First, each vendor indicates that it is continuously updating and enhancing its
products. One company even notes specifically that the software system we tested could be
modified in ways that address the Medicare population more directly. We are confident that
software enhancements undoubtedly will continue to expand the potential for products such as
these to play an important role in fraud prevention and detection.

The purpose of this inspection, however, was not to develop new software, but to test
commercially available off-the-shelf software. Our interest was in determining if products that
were on the market at the time we conducted our review (Spring 1997) could prove useful in
identifying hospitals that showed a high rate of DRG upcoding. Consequently, we did not modify
the vendors’ software, nor did we ask them to modify the software or to develop a specific
software product for this purpose. Rather, we utilized the vendors’ software packages on an “as-
is” basis.

Second, the vendors raised concerns about our use of the software to go beyond identification of
individual claims that may have been coded incorrectly. We recognize that, to some extent, our
test was a modification of the original intent of these software products, which is to detect
specific clinical claims that are questionable. In essence, we took this underlying approach and
extended it. We aggregated the results of the individual claims analysis in order to identify
hospitals that the software showed have a tendency toward upcoding. We then verified the
software products’ performance by reviewing cases among a sample of the providers that the
software identified as having a high rate of upcoding. In our judgement, this was a logical
extension of the software to the practical realities of how it could be used in the Medicare
program. We used these products in a manner that might identify and focus on providers that
may bear additional scrutiny in a fraud prevention and detection effort.

We also wish to address the methodological issues that Dhrystone Systems raised in its response
to the report. First, this vendor questions the methods that we used to select our sample, in that
the sample contains outliers. We stand by our methodology; indeed we designed the
methodology specifically to concentrate on the outlying providers that are most problematic. The
experimental group comprised hospitals that the software identified as lying at least two standard
deviations above the mean in the proportion of upcoding identified by the software. The control
group comprised all remaining hospitals.

 OEI-01-97-00010                         )))))))))))             Software to Detect Upcoding of Hospital
                                              9                                                    Bills
Second, Dhrystone also questions the appropriateness of our limiting the universe of cases
reviewed to the 50 most common DRGs. In response, we note that we selected records from
these 50 DRGs to focus our review effort. These 50 DRGs comprise nearly 70 percent of all
discharges, and over 60 percent of all Medicare PPS reimbursement. Consequently, targeting
these 50 DRG strikes us as a prudent means of focusing on where the greatest concentration of
Medicare dollars lies. We do not generalize these results to broader populations of DRGs or of
hospitals.

Dhrystone also states that the study purports to have been conducted in a double blind manner,
and questions whether we did, in fact, do so. In response, we note that our review was conducted
in a blinded manner; but we do not claim it was a double blind study. The initial review was
conducted by a registered records coder in a fully blinded manner. If the coder found a
discrepancy, the record was then unblinded; the coder then compared the hospital’s reasoning
with her reasoning, and arrived at a determination of the appropriate coding. If disagreement
persisted between the coder and the hospital, a second blind review was conducted, and the
results of both reviews compared. In essence, this is a conservative way of conducting a review
such as this. It clearly gives the benefit of any initial doubt to the hospital. We consider such a
conservative approach to be prudent and likely reflective of any practical application of such
software by HCFA and the Office of Inspector General.




 OEI-01-97-00010                         )))))))))))             Software to Detect Upcoding of Hospital
                                              10                                                   Bills
                                 APPENDIX A


                            Software Vendor Search

      Our contractor, FMAS Corporation, consulted with the World Development Group
      (WDG) to search for commercial software vendors that had products designed to locate
      DRG upcoding using claims data.10,11

      To begin the search for software vendors, WDG identified and interviewed relevant
      experts and companies to obtain names of probable software vendors, additional experts,
      and any other relevant information to assist in the search. Initially, WDG identified 33
      experts in health informatics, medical expert systems, electronic medical records, and
      Medicare Part A claims payment.

      WDG sent each expert a fax describing the purpose of the project, the software of interest,
      and the questions that it would ask in a telephone interview. WDG contacted and
      interviewed 25 of the experts. This effort resulted in the identification of 11 additional
      experts, 5 of which WDG interviewed. In total, WDG interviewed 30 experts.

      Concurrent with interviewing experts, WDG conducted a literature and Internet search to
      identify relevant software vendors. WDG searched the following print sources:

      <       1996 Annual Market Directory Issue. Health Management Technology. 1996.
      <       Medical Hardware and Software Buyer’s Guide. M.D. Computing 1995; 12 (6).
      <       Ankrapp, Betty (ed). Health Care Software Sourcebook. Gaithersburg, MD:
              Aspen Publishers, Inc., 1996.
      <       Frisch, Bruce (ed). The HCP Directory of Medical Software. Brooklyn, NY:
              Healthcare Computing Publications Inc., 1996.

      The literature and Internet searches and interviews with industry experts identified 57
      vendors whose product description indicated some type of claim auditing software or
      services. WDG faxed a letter to each of these vendors to determine if they sold a product
      that met the project’s criteria of relevance. This search identified three more vendors who
      claimed to have a relevant product.

      In total, 21 of the 57 vendors appeared to meet the initial criteria of relevance. In
      preparation for the telephone interview, WDG sent a fax to these vendors.

      WDG interviewed 20 of the 21 vendors. One vendor did not respond to repeated calls.
      Of the 20 vendors interviewed, 6 confirmed having a relevant product. Interviews with
      the 6 confirmed vendors lasted an average of an hour. During these interviews, WDG
      requested brochures and any other available product literature, as well as a contact name
      for the software testing phase of the study.

OEI-01-97-00010                         )))))))))))               Software to Detect Upcoding of Hospital
                                            A-1                                                     Bills
      Of the six vendors, five agreed to a test of their software with certain conditions. WDG
      conducted follow-up interviews to obtain client references and discuss the test that would
      be conducted. In preparation of these follow-up interviews, WDG developed questions to
      query vendors about their software, clients, and willingness to test their software. WDG
      sent each of the 5 vendors a fax describing the purpose of the test and the topics to be
      discussed during the follow-up interview.

      WDG contacted and interviewed all 5 vendors. Each interview lasted an average of 15
      minutes. During these interviews, WDG requested as references the names of two payers
      or fiscal intermediaries. If the vendor did not have payer or fiscal intermediary references,
      WDG accepted any client references. Subsequently, WDG interviewed two client
      references for an average of 10 minutes each.

      Vendors’ concerns about the test fell into three categories: 1) the size of our test (5-10
      million claims records) was too large; 2) vendors were uncertain about how OIG would
      utilize the results of the test; and 3) OIG’s desired layout of the output was not clear
      enough.

      Because of these concerns, only three vendors chose to remain in the study and participate
      in a test of their software.




OEI-01-97-00010                         )))))))))))              Software to Detect Upcoding of Hospital
                                            A-2                                                    Bills
                                 APPENDIX B


                                Testing Methodology

       We executed the study in two phases, utilizing a contractor with expertise in medical
       record review and statistical sampling for highly specialized tasks. In phase one, we
       located software products that might detect upcoding, used these products to generate a
       sample of hospitals, and drew a sample of medical records from these hospitals. In phase
       two, we performed a DRG validation on each case in our sample and used the results of
       this validation to determine if the software products used in stage one accurately predicted
       DRG upcoding.

       We began phase one by issuing a Request for Proposals to locate a contractor with
       expertise in medical record review and statistical sampling to assist in the study. We
       contracted with FMAS Corporation, a company with extensive experience performing
       case review and analysis for the health care programs of the U.S. Department of Health
       and Human Services and the Department of Defense.12

       FMAS worked with World Development Group (WDG) to locate vendors of software
       that detects DRG upcoding. From a field of 57 probable vendors, WDG identified 3
       vendors that had relevant software and were willing to participate in our test. (See
       Appendix A).

Sample Selection

       We used the software from these three vendors to process 100 percent of Medicare
       Prospective Payment System (PPS) cases from January through June 1996.13 As output,
       each software flagged cases that it deemed likely to have an upcoded DRG. Next, we
       made 3 lists of hospitals with high predicted rates of upcoding by collapsing each
       software’s output by hospital. Through correlation analysis, we discovered a strong
       relationship between the lists of hospitals from two of the software, while the list from the
       third software differed significantly. This meant that we would have to draw two separate
       samples to have a sample of hospitals that was representative of hospitals identified by all
       three software. Thus, due to limits on the number of medical records we could review for
       this study, we decided to focus our inquiry by testing only the output from the two
       software whose lists were closely correlated.14

       To build our experimental (test) sample, we first selected hospitals that either of the two
       software indicated had a predicted upcoding rate of the mean rate plus two standard
       deviations. This process led to a group of 299 hospitals, which we stratified into three
       groups according to number of Medicare discharges in the 6-month file we analyzed: 300
       or fewer discharges, 301 to 1,000 discharges, and over 1,000 discharges. Next, in


 OEI-01-97-00010                         )))))))))))              Software to Detect Upcoding of Hospital
                                             B-1                                                    Bills
      proportion to the total number of hospitals in each stratum, we randomly selected a total
      of 50 hospitals from across the 3 strata.

      From each hospital, we then randomly selected 40 Medicare cases billed under any of the
      50 DRGs that were most commonly used across the country during fiscal year 1996. As a
      control sample, we executed the same sampling strategy to select 800 cases from 20
      hospitals that had did not have high predicted rates of upcoding. This brought our total
      sample to 2,800 cases: 2,000 of which were from hospitals that had high predicted rates of
      upcoding, 800 of which were from hospitals that did not have high predicted rates of
      upcoding. We then merged claims data from each case against Medicare’s Enrollment
      Data Base (EDB) to obtain beneficiary name and the Online Survey Certification and
      Reports (OSCAR) system to obtain hospital name and address. We used this information
      to mail medical record request letters and case listings to the administrator of each hospital
      in our sample. Hospitals sent medical records to the OIG, where we logged them, gave
      them a quality check, and assigned each a tracking number. We then sent the records to
      FMAS for DRG coding validation.

DRG Coding Validation

      During phase two of the study the contractor, FMAS, performed a DRG coding validation
      on 2,622 (94 percent) of the 2,800 records in our sample. FMAS, using Registered
      Records Analysts and Accredited Records Technicians, performed a blinded record
      review, in which the original ICD-9-CM and DRG codes were hidden. This review
      generated new ICD-9-CM codes and a new DRG code for each case in the sample. When
      FMAS completed reviewing a record, it compared the new codes to the previously hidden
      codes used by the hospital. Below is the DRG reconciliation process:

      If FMAS’ codes and the hospital’s codes matched, FMAS noted the DRG as correctly
      coded by the hospital. Depending on the specific ICD-9-CM codes assigned by FMAS, it
      assigned one of the following two reconciliation reason codes to the case:

      1.      Confirm: Face Sheet, UB-92, FMAS codes and DRGs match.

      2.      DRGs match, but there is some variance in codes.

      If FMAS’ codes initially disagreed with those of the hospital, FMAS still noted the
      hospital’s DRG as correctly coded by the hospital if its reviewer agreed with the hospital’s
      coding after performing an unblinded reconciliation review. FMAS’ reviewer then
      assigned one of the following reconciliation codes to the case:

      3.	     DRGs differed because more than one diagnosis could have been the principal
              diagnosis according to guidelines and hospital selected principal diagnosis leading
              to lower-weighted DRG. FMAS did not recode or regroup these cases either in
              software or on its hardcopy worksheet.



OEI-01-97-00010                         )))))))))))              Software to Detect Upcoding of Hospital
                                            B-2                                                    Bills
      4.	     DRGs differed because of a judgement-call situation not covered by guidelines or
              Coding Clinic. FMAS’ reviewer gave the hospital the benefit of the doubt. FMAS
              did not recode or regroup these cases either in software or on its hardcopy
              worksheet.

      5.	     DRGs differed but FMAS’ reviewer, upon reviewing hospital’s codes/DRG, noted
              that the hospital’s DRG was correct. This was the only reconciliation reason
              category that FMAS recoded and regrouped in software and on the hardcopy
              worksheet so that its final DRG matched the initial hospital DRG.

      6.	     UB-92 DRG differed but hospital face sheet matched FMAS’ DRG. FMAS did
              not recode or regroup these cases either in software or on its hardcopy worksheet.
              This category was selected whenever the codes on the face sheet would have led
              to the same DRG as the FMAS DRG, but the UB-92 DRG and related codes were
              different.

      7.	     FMAS reserved this reconciliation code for potential additional reconciliation
              reasons, but did not use it during the study.

      Whenever the DRGs differed after reconciliation, FMAS assigned the following
      reconciliation reason code to the case:

      8.	     DRGs differ. Upon review of hospital’s DRG codes, FMAS’ reviewer confirmed
              that FMAS’ DRG was correct based upon coding guidelines and Coding Clinic.
              FMAS did not recode or regroup these cases either in software or on its hardcopy
              worksheet. FMAS recorded all applicable DRG variance reasons and one DRG
              variance type (described below) on its DRG variance worksheet. FMAS then
              completed a second blinded review of the case using a different reviewer.

              Variance types for reconciliation reason 8:

              Misspecification: The narrative principal diagnosis, a secondary diagnosis, or a
              procedure is not supported by the medical record.

              Miscoding: The medical records department selected an incorrect ICD-9-CM
              numeric code for a correct narrative diagnosis or procedure.

              Resequencing: The hospital substituted a secondary diagnosis for the correctly
              attested and coded principal diagnosis.

              Other: The hospital made another type of error (such as incorrect discharge
              status) that led to DRG variance but cannot be categorized as numbers 1-3 above.




OEI-01-97-00010                         )))))))))))             Software to Detect Upcoding of Hospital
                                            B-3                                                   Bills
OIG Analysis

      FMAS sent data for the completed medical record reviews to OIG in electronic format,
      keyed by our tracking number. We merged these data with the original inpatient claims
      data and additional administrative data to create our analytical files for the study.

      We analyzed these files on three levels: by hospital, by DRG, and by case. To perform
      hospital-level and DRG-level analyses, we aggregated our data by hospital and DRG to
      compare actual and predicted rates of upcoding. Case-level analysis examined the success
      of the software in predicting DRG upcoding on a case-by-case basis. We used t-tests
      and logistical regression to determine statistical differences. We performed data analysis
      using SAS software.15




OEI-01-97-00010                        )))))))))))             Software to Detect Upcoding of Hospital
                                           B-4                                                   Bills
                                     APPENDIX C


                                        Statistical Tables

                                       TABLE C-1
                          CHARACTERISTICS OF HOSPITALS REVIEWED
                                      Control Sample            Test Sample               Total
                                          (n=20)                  (n=50)               Sample (n=70)
                                             n    (%)                n    (%)               n (%)
      Number of Beds
        1-99                               14 (70.0)               42    (84.0)            56 (80.0)
         100-299                             5 (25.0)                4     (8.0)            9 (12.9)
         300+                                1     (5.0)             4     (8.0)            5     (7.1)
      Teaching Status
        Teaching                             3 (15.0)              10    (20.0)            13 (18.6)
         Nonteaching                       17 (85.0)               40    (80.0)            57 (81.4)
      Location
        Metropolitan                       11 (55.0)               10    (20.0)            21 (30.0)
         Nonmetropolitan                     9 (45.0)              40    (80.0)            49 (70.0)
      Control
        For profit                           3 (15.0)                3     (6.0)            6     (8.6)
         Nonprofit                         14 (70.0)               20    (40.0)            34 (48.6)
         Government                          3 (15.0)              27    (54.0)            30 (42.9)
      Number of
      Discharges, 1/96-6/96
         1-300                               9 (45.0)              32    (64.0)            41 (58.6)
         301-1000                            8 (40.0)              13    (26.0)            21 (30.0)
         1001+                               3 (15.0)                5   (10.0)             8 (11.4)
      Source: OIG analysis of the FY 1996 Medicare Provider Analysis and Review (MEDPAR) file and data
      from the Online Survey Certification Reports (OSCAR) system.




OEI-01-97-00010                                  )))))))))))               Software to Detect Upcoding of Hospital
                                                    C-1                                                      Bills
                                                  TABLE C-2
                   COMPARISON OF TEST SAMPLE WITH ALL HOSPITALS WITH
                          HIGH PREDICTED RATES OF UPCODING
                                                      Test Sample         Total High Predicted
                                                        (n=50)              Group (n=299)
                                                          n     (%)               n      (%)

                  Number of Beds
                    1-99                                42    (84.0)           219      (73.2)
                     100-299                              4     (8.0)           49      (16.4)
                     300+                                 4     (8.0)           31      (10.4)
                  Teaching Status
                    Teaching                            10    (20.0)            62      (20.7)
                     Nonteaching                        40    (80.0)           237      (79.3)
                  Location
                    Metropolitan                        10    (20.0)            89      (29.8)
                     Nonmetropolitan                    40    (80.0)           210      (70.2)
                  Control
                    For profit                            3     (6.0)           30      (10.0)
                     Nonprofit                          20    (40.0)           124      (41.5)
                     Government                         27    (54.0)           145      (48.5)
                  Number of
                  Discharges, 1/96-6/96
                     1-300                              32    (64.0)           155      (51.8)
                     301-1,000                          13    (26.0)           109      (36.5)
                     1,001+                               5   (10.0)            35      (11.7)
                  Source: OIG analysis of the FY 1996 Medicare Provider Analysis and Review
                  (MEDPAR) file and data from the Online Survey Certification Reports (OSCAR)
                  system.




OEI-01-97-00010                                 )))))))))))                  Software to Detect Upcoding of Hospital
                                                   C-2                                                         Bills
                                      TABLE C-3
                   HOSPITAL CHARACTERISTICS BY CASE CHARACTERISTICS
                                 FOR CASES REVIEWED
                                    Control Sample            Test Sample                 Total
                                       (n=744)                 (n=1,878)                (n=2,622)
                                           n    (%)               n      (%)              n    (%)

        Number of Beds
          1-99                          531 (71.4)           1,583     (84.3)        2,114 (80.6)
           100-299                      175 (23.5)             156       (8.3)         331 (12.6)
           300 +                         38     (5.1)          139       (7.4)         177     (6.8)
        Teaching Status
          Teaching                      108 (14.5)             372     (19.8)          480 (18.3)
           Nonteaching                  636 (85.5)           1,506     (80.2)        2,142 (81.7)
        Location
          Metropolitan                  407 (54.7)             383     (20.4)          790 (30.1)
           Nonmetropolitan              337 (45.3)           1,495     (79.6)        1,832 (69.9)
        Control
          For profit                    119 (16.0)             120       (6.4)         239     (9.1)
           Nonprofit                    511 (68.7)             770     (41.0)        1,281 (48.9)
           Government                   114 (15.3)             988     (52.6)        1,102 (42.0)
        Source: OIG analysis of the FY 1996 Medicare Provider Analysis and Review (MEDPAR) file and
        data from the Online Survey Certification Reports (OSCAR) system.




OEI-01-97-00010                                )))))))))))                Software to Detect Upcoding of Hospital
                                                  C-3                                                       Bills
                                                 TABLE C-4
                      BENEFICIARY CHARACTERISTICS FOR CASES REVIEWED
                                    Control Sample             Test Sample                 Total
                                       (n=744)                  (n=1,878)                (n=2,622)
                                           n    (%)                n     (%)               n    (%)

           Age (years)
             <65                        106 (14.3)              268     (14.3)          374 (14.3)
              65-74                     196 (26.3)              489     (26.0)          685 (26.1)
              75-84                     269 (36.2)              695     (37.0)          964 (36.8)
              85+                       173 (23.3)              426     (22.7)          599 (22.9)
           Sex
             Male                       313 (42.1)              827     (44.0)        1,140 (43.5)
              Female                    431 (57.9)            1,051     (56.0)        1,482 (56.5)
           Race
             White                      648 (87.1)            1,573     (83.8)        2,221 (84.7)
              Black                       59    (7.9)           201     (10.7)          260     (9.9)
              Other                       28    (3.8)             87     (4.6)          115     (4.4)
              Unknown                      9    (1.2)             17     (0.9)            26    (1.0)
           Source: OIG analysis of the FY 1996 Medicare Provider Analysis and Review (MEDPAR) file.




OEI-01-97-00010                                )))))))))))                 Software to Detect Upcoding of Hospital
                                                  C-4                                                        Bills
                                     TABLES C-5

                        RESULTS OF LOGISTIC REGRESSION MODEL


                                  TABLE C-5A
                    ODDS RATIOS ESTIMATES FOR STATISTICALLY
                            SIGNIFICANT VARIABLES
                                                    90% Confidence Interval
                        Variable           Estimate   Lower       Upper
              Facility in Selected Group     1.94      1.41        2.66
              Teaching Hospital              0.52      0.37        0.74
              Publicly Owned                 1.79      1.39        2.32
              High Case Mix Index            2.59      1.96        3.43
              Male                           0.68      0.54        0.87
              Age 75 to 84                   1.40      1.07        1.85
              Age 85+                        1.60      1.18        2.17
              Flagged by Product A           3.49      2.73        4.46
              Flagged by Product B*          1.25      0.99        1.58

             *This variable was not significant.



                                                  TABLE C-5B
                                DEPENDENT VARIABLE IN LOGISTIC REGRESSION MODEL
                          Case Actually Upcoded as Determined by Our Medical Records Reviewers

Change                    1 = DRG Upcoded (N=254)         0 = DRG not Upcoded (N=2,368)




OEI-01-97-00010                         )))))))))))            Software to Detect Upcoding of Hospital
                                           C-5                                                   Bills
                                      TABLE C- 5C
                   INDEPENDENT VARIABLES IN LOGISTIC REGRESSION MODEL
                                                Facility Characteristics

Profit         1 = For profit                 0 = Non profit
Public         1 = Public                     0 = Non profit
Location       1 = Nonmetropolitan            0 = Metropolitan
Teaching       1 = Teaching                   0 = Nonteaching
Smallbed       1 = 1-99 beds                  0 = 100-299 beds
Bigbed         1 = 300 + beds                 0 = 100-299 beds
FewDC          1= 300 or fewer discharges     0 = 301 - 1,000 discharges
ManyDC         1 = Over 1,000 discharges      0 = 301 - 1,000 discharges
LowCMI         1 = CMI less than 0.9          0 = CMI between .9 and 1.1
High CMI       1 = CMI over 1.1               0 = CMI between .9 and 1.1
ExpSamp        1= Facility in test group of hospitals    0=Facility in control group of hospitals
                                                Patient Characteristics

Gender         1 = Male                       0 = Female
Black          1 = Black                      0 = White
Other          1 = Other                      0 = White
Unknown        1 = Unknown                    0 = White
Young          1 = Under 65                   0=65-74
Seven5         1 = 75-84                      0=65-74
Eight5         1 = 85 and Older               0=65-74
                                                 Case Characteristics

Surgical       1 = Surgical Claim             0 = Nonsurgical Claims
                                               Software Characteristics

A_Hit          1 = Flagged by Software A      0=Not flagged by Software A
B_Hit          1= Flagged by Software B       0= Not flagged by Software B



 OEI-01-97-00010                           )))))))))))               Software to Detect Upcoding of Hospital
                                              C-6                                                      Bills
                                   TABLE C-6
       SOFTWARE PERFORMANCE ON THE 10 DRGS WITH HIGHEST RATES OF UPCODING
                                         Cases             Percent
 DRG                                                                      Product A                  Product B
                                        Reviewed           Upcoded
 (% of Medicare discharges)        (% of reviewed cases)             Sensitivity Specificity   Sensitivity   Specificity
 87 Pulmonary edema &
                                           32
    respiratory failure (0.6%)                              41%        69%         60%           62%           47%
                                         (1.2%)

 79 Respiratory infections &
                                           186
    inflammations age >17                                   35%        95%         36%           55%           36%
                                         (7.1%)
    w/cc (2.2%)
 144 Other circulatory system
                                           23
     diagnoses w/cc (0.7%)                                  30%        86%         86%           71%           42%
                                         (0.9%)

 239 Pathological fractures &
                                           25
     musculoskeletal & conn                                 24%         0%          0%           33%           18%
                                         (1.0%)
     tiss malignancy (0.5%)
 429 Organic disturbances &
                                           13
     mental retardation (0.4%)                              23%         0%         N/A*          33%           50%
                                         (0.5%)

 416 Septicemia age >17
     (2.0%)                                84               20%        94%         23%           82%           22%
                                         (3.2%)

 475 Respiratory system
                                           26
     diagnosis with ventilator                              19%       100%         20%          100%           26%
                                         (1.0%)
     support (0.9%)
 188 Other digestive system
                                           17
     diagnoses age >17 w/cc                                 18%         0%          0%           67%           20%
                                         (0.6%)
     (0.6%)
 121 Circulatory disorders
                                           54
     w/AMI & C.V. comp                                      15%        25%         15%           88%           15%
                                         (2.1%)
     disch alive (1.5%)
 316 Renal failure (0.8%)
                                           34               15%        20%         33%           20%            6%
                                         (1.3%)


*Note:

Sensitivity = N/A when we found no upcoded cases within a DRG, i.e., the denominator in our sensitivity

calculation is zero.


Specificity = N/A when the software did not flag any cases within a DRG, i.e., the denominator of our specificity

calculation is zero.





  OEI-01-97-00010                                 )))))))))))                  Software to Detect Upcoding of Hospital
                                                     C-7                                                         Bills
                                      TABLE C-7
                SOFTWARE PERFORMANCE ON TEN DRGS WITH HIGHEST RATES OF
                             UPCODING VERSUS ALL OTHERS
                                                               MEAN      STD DEV        t       P<

               PRODUCT A SENSITIVITY

                 Top 10 Upcoded DRGs                          0.4894       0.4367

                 All Others (25 with a score*)                0.2763       0.3351     1.558     n/s

               PRODUCT A SPECIFICITY

                 Top 10 Upcoded DRGs (9 with a score*)        0.3045       0.2787

                 All Others (25 with a score)                 0.0891       0.1038     2.265     .10


               PRODUCT B SENSITIVITY

                 Top 10 Upcoded DRGs                          0.6115       0.2596

                 All Others (25 with a score)                 0.4808       0.3560     1.203     n/s

               PRODUCT B SPECIFICITY

                 Top 10 Upcoded DRGs                          0.2819       0.1479

                 All Others (36 with a score)                 0.0594       0.0826     4.562     .05

*Note:

When a DRG may not have a sensitivity score: DRGs with no upcoding will not have a sensitivity score, as the

sensitivity denominator, the number of upcoded cases, is zero. Fifteen of the 50 DRGs in our sample had no

upcoding.


When a DRG may not have a specificity score: DRGs that had no cases flagged by the software will not have a
specificity score, as the specificity denominator, the number of flagged cases, is zero. Sixteen DRGs had no cases
flagged by Product A. Four DRGs had no cases flagged by Product B.




  OEI-01-97-00010                                )))))))))))                  Software to Detect Upcoding of Hospital
                                                    C-8                                                         Bills
                                     TABLE C-8
           SOFTWARE PERFORMANCE ON THE 10 MOST COMMONLY OCCURRING DRGS
 DRG                                           Cases Reviewed            Product A               Product B
 (% of Medicare discharges)                  (% of reviewed cases) Sensitivity Specificity Sensitivity Specificity

 127 Heart failure & shock (6.3%)
                                                     245               0%          0%          55%           5%
                                                    (9.3%)

 89 Simple pneumonia & pleurisy age
                                                     299
    >17 w/cc (4.0%)                                                   11%          4%          67%           8%
                                                   (11.4%)

 14 Specific cerebrovascular disorders
                                                     129
    except TIA (3.4%)                                                 58%         14%          58%           8%
                                                    (4.9%)

 88 Chronic obstructive pulmonary
                                                     163
    disease (3.3%)                                                     0%          0%           0%           0%
                                                    (6.2%)

 209 Major joint & limb reattachment
                                                      47
     procedures- lower extremity (3.2%)                              N/A*         N/A*         N/A           0%
                                                    (1.8%)

 79 Respiratory infections &
                                                     186
    inflammations age >17 w/cc (2.2%)                                 95%         36%          55%          36%
                                                    (7.1%)

 174 G.I. hemorrhage w/cc (2.2%)
                                                      82              25%          7%          38%           8%
                                                    (3.1%)

 182 Esophagitis, gastroent & misc digest
                                                     105
     disorders age >17 w/cc (2.1%)                                    10%          5%          30%           7%
                                                    (4.0%)

 296 Nutritional & misc metabolic
                                                     108
     disorders age >17 w/cc (2.1%)                                    36%         26%          50%          10%
                                                    (4.1%)

 112 Percutaneous cardiovascular
                                                       9
     procedures (2.0%)                                                N/A         N/A          N/A           0%
                                                    (0.3%)



*Note:

Sensitivity = N/A when we found no upcoded cases within a DRG, i.e., the denominator in our sensitivity

calculation is zero.


Specificity = N/A when the software did not flag any cases within a DRG, i.e., the denominator of our specificity

calculation is zero.





  OEI-01-97-00010                                )))))))))))                  Software to Detect Upcoding of Hospital
                                                    C-9                                                         Bills
                                      TABLE C-9
                 SOFTWARE PERFORMANCE ON TEN MOST COMMON DRGS VERSUS
                                     ALL OTHERS
                                                              MEAN       STD DEV        t       P<

               PRODUCT A SENSITIVITY

                10 Most Common DRGs (8 with a score*)         0.2944      0.3314

                All Others (27 with a score)                  0.3499      0.3896     0.364      n/s

               PRODUCT A SPECIFICITY

                10 Most Common DRGs (9 with a score*)         0.1159      0.1327

                All Others (27 with a score)                  0.1529      0.2028     0.484      n/s


               PRODUCT B SENSITIVITY

                10 Most Common DRGs (8 with a score)          0.4405      0.2128

                All Others (27 with a score)                  0.5412      0.3611     0.745      n/s

               PRODUCT B SPECIFICITY

                10 Most Common DRGs                           0.0817      0.1050

                All Others (36 with a score)                  0.1150      0.1430     0.684      n/s


*Note:

When a DRG may not have a sensitivity score: DRGs with no upcoding will not have a sensitivity score, as the

sensitivity denominator, the number of upcoded cases, is zero. Fifteen of the 50 DRGs in our sample had no

upcoding.


When a DRG may not have a specificity score: DRGs that had no cases flagged by the software will not have a
specificity score, as the specificity denominator, the number of flagged cases, is zero. Sixteen DRGs had no cases
flagged by Product A. Four DRGs had no cases flagged by Product B.




  OEI-01-97-00010                                )))))))))))                  Software to Detect Upcoding of Hospital
                                                    C - 10                                                      Bills
                        APPENDIX D


                  Software Vendors’ Comments





OEI-01-97-00010            )))))))))))   Software to Detect Upcoding of Hospital
                              D-1                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D-2                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D-3                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D-4                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D-5                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D-6                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D-7                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D-8                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D-9                                          Bills
OEI-01-97-00010   )))))))))))   Software to Detect Upcoding of Hospital
                     D - 10                                       Bills
                                 APPENDIX E


                                            Notes

1. Department of Health and Human Services, Health Care Financing Administration, Office of
the Actuary. Personal communication April, 1998.

2. Department of Health and Human Services, Office of Inspector General, Report on the
Financial Statement Audit of the Health Care Financing Administration for Fiscal Year 1997,
A-01-97-00520, May 1998.

3. Department of Health and Human Services, Office of Inspector General, National DRG
Validation Study Special Report on Coding Accuracy, OAI-12-88-01010, February 1988.

4. Department of Health and Human Services, Office of Inspector General, National DRG
Validation Study Update: Summary Report, OEI-12-89-00190, August 1992.

5. The main issues of concern for those declining to participate fell into three categories: 1) the
size of our test (5-10 million claims records) was too large; 2) vendors were uncertain about how
OIG would utilize the results of the test; and 3) OIG’s desired layout of the output was not clear
enough.

6. We used the Medicare Provider Analysis and Review (MEDPAR) file as input for the software
products. This file contains diagnostic, billing, and beneficiary demographic data for each stay in
an inpatient hospital by a Medicare beneficiary. Our test ran approximately 6 million MEDPAR
records through each software product.

7. The fact that output from one vendor’s software differed significantly and that we decided not
to test it is in no way a reflection on the potential merit of that software.

8. Although not the purpose of this evaluation, we also kept track of cases that were undercoded
(i.e., cases in which the hospital billed for a less expensive DRG than it should have). Our review
found that out of 2,622 cases, 124 cases (4.73 percent) were undercoded while 254 cases (9.69
percent) were upcoded.

9. The 10 most frequent DRGs in Medicare comprise a higher percentage of the discharges in our
sample compared to the all Medicare discharges (13 percent versus 10 percent) due to our
sampling strategy. We sampled only among the top 50 most common DRGs.

10. FMAS Corporation. 11300 Rockville Pike. Rockville, MD 20852.

11. World Development Group, Incorporated. 5101 River Road, Suite 1913. Bethesda, MD
20816-1574.

12. FMAS Corporation. 11300 Rockville Pike, Rockville, MD 20852.

 OEI-01-97-00010                         )))))))))))              Software to Detect Upcoding of Hospital
                                            E-1                                                     Bills
13. This represents about 6 million admissions. We used the Medicare Provider Analysis and
Review (MEDPAR) file as input.

14. The fact that output from one product differed significantly and that we decided not to test it
is in no way a reflection on the potential merit of that product.

15. SAS Institute, Inc. SAS Campus Drive, Cary, NC 27513.




 OEI-01-97-00010                         )))))))))))              Software to Detect Upcoding of Hospital
                                            E-2                                                     Bills
